1a
APPENDIX A
LIST OF AMICI CURIAE
Charles W. Thompson, Jr.
General Counsel
51 Monroe Street, Suite 404
Rockville, MD 20850
Attorney for Amicus Curiae
International Municipal Lawyers Association
National League of Cities
660 North Capitol Street NW
Washington, DC 20001
Donna R. Ziegler
County Counsel
1221 Oak Street, Suite 450
Oakland, CA 94612
Attorney for Amicus Curiae
Alameda County, California
Esteban A. Aguilar, Jr.
City Attorney
One Civic Plaza NW
4th Floor, Room 4072
Albuquerque, NM 87102
Attorney for Amicus Curiae
City of Albuquerque, New Mexico

2a
Joanna C. Anderson
City Attorney
301 King Street, Suite 1300
Alexandria, VA 22314
Attorney for Amicus Curiae
for City of Alexandria, Virginia
Anne L. Morgan
City Attorney
P.O. Box 1546
Austin, TX 78767
Attorney for Amicus Curiae
City of Austin, Texas
Andre M. Davis
City Solicitor
100 North Holliday Street
Suite 101
Baltimore, MD 21202
Attorney for Amicus Curiae
Mayor and City Council of Baltimore, Maryland
David Hughes
Deputy County Attorney
P.O. Box 471
Boulder, CO 80306
Attorney for Amicus Curiae
Boulder County, Colorado

3a
Nancy E. Glowa
City Solicitor
795 Massachusetts Avenue
Cambridge, MA 02139
Attorney for Amicus Curiae
City of Cambridge, Massachusetts
John C. Musto
Chief Trial Counsel
101 West Third Street
Dayton, OH 45402
Attorney for Amicus Curiae
City of Dayton, Ohio
Kimberly Martin Rehberg
City Attorney
101 City Hall Plaza
2nd Floor, Suite 2200
Durham, NC 27701
Attorney for Amicus Curiae
City of Durham, North Carolina
N. Lynn Board
City Attorney
31 South Summit Avenue
Gaithersburg, MD 20877
Attorney for Amicus Curiae
City of Gaithersburg, Maryland

4a
Paul S. Aoki
Acting Corporation Counsel
530 South King Street, Room 110
Honolulu, HI 96813
Attorney for Amicus Curiae
City and County of Honolulu, Hawai‘i
Eleanor M. Dilkes
City Attorney
City Hall
410 East Washington Street
Iowa City, IA 52240
Attorney for Amicus Curiae
City of Iowa City, Iowa
Mary C. Wickham
County Counsel
Scott Kuhn
Assistant County Counsel
Katherine G. McKeon
Deputy County Counsel
648 Kenneth Hahn Hall of Administration
500 West Temple Street
Los Angeles, CA 90012
Attorneys for Amicus Curiae
Los Angeles County, California

5a
Michael P. May
City Attorney
210 Martin Luther King Jr. Boulevard
Room 401
Madison, WI 53703
Attorney for Amicus Curiae
City of Madison, Wisconsin
Moana M. Lutey
Corporation Counsel
200 South High Street
Wailuku, HI 96793
Attorney for Amicus Curiae
Maui County, Hawai‘i
Leslie J. Girard
County Counsel
168 West Alisal Street, 3rd Floor
Salinas, CA 93901
Attorney for Amicus Curiae
Monterey County, California
Marc P. Hansen
County Attorney
101 Monroe Street
Rockville, MD 20850
Attorney for Amicus Curiae
Montgomery County, Maryland

6a
Donald A. Larkin
City Attorney
17575 Peak Avenue
Morgan Hill, CA 95037
Attorney for Amicus Curiae
City of Morgan Hill, California
Barbara J. Parker
City Attorney
One Frank H. Ogawa Plaza
Sixth Floor
Oakland, CA 94612
Attorney for Amicus Curiae
City of Oakland, California
Tracy Reeve
City Attorney
1221 SW Fourth Avenue, Suite 430
Portland, OR 97204
Attorney for Amicus Curiae
City of Portland, Oregon
Susana Alcala Wood
City Attorney
915 I Street, Fourth Floor
Sacramento, CA 95814
Attorney for Amicus Curiae
City of Sacramento, California

7a
Lyndsey M. Olson
City Attorney
400 City Hall and Court House
15 West Kellogg Boulevard
Saint Paul, MN 55102
Attorney for Amicus Curiae
City of Saint Paul, Minnesota
Christopher A. Callihan
City Attorney
200 Lincoln Avenue
Salinas, CA 93901
Attorney for Amicus Curiae
City of Salinas, California
Peter S. Holmes
City Attorney
701 Fifth Avenue, Suite 2050
Seattle, WA 98104
Attorney for Amicus Curiae
City of Seattle, Washington
Francis X. Wright, Jr.
City Solicitor
93 Highland Avenue
Somerville, MA 02143
Attorney for Amicus Curiae
City of Somerville, Massachusetts

8a
Stephanie Steele
Corporation Counsel
227 West Jefferson Boulevard, Suite 1200S
South Bend, IN 46601
Attorney for Amicus Curiae
City of South Bend, Indiana
Kathryn Emmett, Esq.
Director of Legal Affairs and Corporation Counsel
888 Washington Boulevard
Stamford, CT 06904
Attorney for Amicus Curiae
City of Stamford, Connecticut

